<html>
<title> - DECLINE OF OAK POPULATIONS IN SOUTHERN STATES CAUSED BY PROLONGED DROUGHT AND THE RED OAK BORER INSECT INFESTATION</title>
<body><pre>[Senate Hearing 107-930]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-930
 
   DECLINE OF OAK POPULATIONS IN SOUTHERN STATES CAUSED BY PROLONGED 
           DROUGHT AND THE RED OAK BORER INSECT INFESTATION
=======================================================================




                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY
                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 5, 2002

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov









                       U. S. GOVERNMENT PRINTING OFFICE
86-218                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

              Mark Halverson, Staff Director/Chief Counsel
            David L. Johnson, Chief Counsel for the Minority
                      Robert E. Sturm, Chief Clerk

              Keith Luse, Staff Director for the Minority

                                  (ii)













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Decline of Oak Populations in Southern States Caused by Prolonged 
  Drought and the Red Oak Borer Insect Infestation...............    01

                              ----------                              

                      Thursday, September 5, 2002
                    STATEMENTS PRESENTED BY SENATORS

Lincoln, Hon. Blanche L., a U.S. Senator from Arkansas, 
  Chairwoman, 
  Subcommittee on Forestry, Conservation, and Rural 
  Revitalization, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Carnahan, Hon. Jean, a U.S. Senator from Missouri................    04
Crapo, Hon. Michael, a U.S. Senator from Idaho...................    03
                              ----------                              

                               WITNESSES

Thompson, Tom, National Forest System Deputy Chief, accompanied 
  by Charles Richmon, Supervisor of the Ozark-St. Francis 
  National Forest................................................    06

                                Panel I

Crouch,``Jim'' James R., on behalf of the Ouachita Timber 
  Purchasers Group, Ozark-St. Francis Renewable Resource Council, 
  Mark Twain Timber 
  Purchasers Group, and the American Forest and Paper Association    21
Krepps, Robert L., Administrator, Forestry Division, Missouri 
  Department of Conservation.....................................    23
Shannon, John T., State Forester of Arkansas, on behalf of the 
  National Association of State Foresters........................    17
Simon, Scott, Director of Conservation, Arkansas Chapter, The 
  Nature 
  Conservancy....................................................    19
                              ----------                              

                                APPENDIX

Prepared Statements:
    Arkansas Game & Fish Commission..............................    67
    Crapo, Hon. Mike.............................................    36
    Crouch, ``Jim'', James R.....................................    78
    Hutchinson, Hon. Tim.........................................    47
    Krepps, Robert L.............................................    84
    Ozark Woodland Owners Association, Inc.......................    54
    Shannon, John T..............................................    70
    Simon, Scott.................................................    73
    Thompson, Tom................................................    42
Document(s) Submitted for the Record:
    Project Proposal; Restoring Forest Ecosystem Health in the 
      Wildland/Urban Interface on the Bayou Ranger District - 
      Ozark-St. Francis National Forest..........................    88
    Senate Agriculture Subcommittee to Hold Hearing Examining Oak 
      Tree Mortality, News from U.S. Senator Blanche Lincoln.....   109











                     DECLINE OF OAK POPULATIONS IN 
                       SOUTHERN STATES CAUSED BY 
       PROLONGED DROUGHT AND THE RED OAK BORER INSECT INFESTATION

                              ----------                              


                      THURSDAY, SEPTEMBER 5, 2002

                                       U.S. Senate,
         Subcommittee on Forestry, Conservation, and Rural 
Revitalization, of the Committee on Agriculture, Nutrition, 
                                              and Forestry,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:10 a.m., in 
room SR-328-A, Russell Senate Office Building, Hon. Blanche L. 
Lincoln, Chairman of the subcommittee, presiding.
    Present or submitting a statement: Senators Lincoln, 
Hutchinson, and Crapo.

STATEMENT OF HON. BLANCHE L. LINCOLN, CHAIRWOMAN, SUBCOMMITTEE 
ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION, AND A U.S. 
                         SENATOR FROM 
                            ARKANSAS

    Senator Lincoln. The Senate Agriculture Subcommittee on 
Forestry, Conservation, and Rural Revitalization will be called 
to order.
    I would like to thank all of you for coming this morning to 
talk about the forest health problem that is really ravaging 
the entire Ozark Highlands. As I mentioned earlier, the fact 
that the House Committee is having a hearing this very morning 
as well, with Secretary Veneman and Norton testifying about the 
health of our forests is indicative of the fact that we do have 
a problem and that people are beginning to see in their own 
States some of the incredible concerns that we have over the 
health of our forest.
    Again, I would like to thank all of you all for joining us. 
Senator Carnahan, we are delighted that you are here, as well.
    I am going to begin with my opening statement and then pass 
it over to Senator Crapo. Thanks for coming, Senator Crapo.
    Senator Crapo. Thank you.
    Senator Lincoln. I appreciate all that you do.
    The health of this Nation's forest, both private and 
public, is in the forefront of our minds. We have the seemingly 
annual fires throughout the West, forest insects and disease 
outbreaks throughout the Nation, and now the prospect of losing 
all of the oaks in the Ozarks. The situation is particularly 
pronounced in my home State of Arkansas and throughout the 
Ozark Highlands of Missouri and Oklahoma.
    Growing up in Arkansas and traveling through the Ozark 
Mountains, I have become accustomed to seeing a very vibrant 
oak and pine forest. However, we are now finding large brown 
bare patches developing among the trees, an all too vivid 
indication of the epidemic of oak decline and the mortality 
sweeping through the Ozark Highlands.
    Oak decline is a natural occurrence in older forest or in 
areas where trees are stressed by things such as old age, 
overpopulation of the forest, poor soil conditions, or the 
effects of several years of severe drought. Under normal 
conditions, oak decline is not necessarily fatal to the trees 
or to the forest.
    However, these conditions have allowed insects such as the 
red oak borer to flourish throughout the forest and has led to 
an epidemic of oak mortality throughout our forests. In fact, 
many estimates now suggest that potentially up to one million 
acres of red oaks have been affected in the Ozark Highlands, 
and it is important to note that this epidemic has not been 
long in coming. It was only first discovered in the late 
1990's. I am concerned that this epidemic will lead to a 
complete loss of red oak from the Ozark Highlands and cause 
long-term changes to the health of the forest ecosystem.
    It is also important to remember that the epidemic has not 
been limited to just public land. Private forest landowners and 
homeowners throughout the Ozarks face the same problem.
    The past several years of extremely dry summer conditions 
have weakened trees throughout our region. We are going to 
discuss this morning the extent of this epidemic in Arkansas as 
well as what, if anything, we can do to mitigate the effect 
this is having on our forest ecosystem.
    Left unchecked, this epidemic of oak mortality could 
completely rob the Ozark Highlands of our oak forest and have 
effects on everything from our timber industry to forest 
tourism, wildlife populations, as well as causing extreme fire 
danger. We all too readily remember the fuel left on the floor 
of our forest after our ice storm of a couple of years ago.
    The Arkansas delegation has worked together before to 
respond to disasters within our forest and I expect this to 
continue as we address this new epidemic. Most recently, we 
worked to gain directly finding, as well as an exemption from 
NEPA, to aid mitigation efforts following that massive ice 
storm I just mentioned.
    We are also in the midst of debating the Interior 
Appropriations Bill on the floor this week and one of the 
topics being debated is that of the forest health and how to 
address and hopefully mitigate against the problem of fire, 
insect, and disease. Many of us here have worked for some time 
on drafting provisions that would hopefully allow us to quickly 
address these problems and I hope we will be successful.
    I also believe that the president echoed this sentiment 
during August and it is good to have the Administration's full 
support in this endeavor.
    Through our witness testimony this morning I hope to gain a 
full grasp of the extent of oak mortality in the Ozarks, what 
the full effects of this epidemic will be, as well as what can 
be done to mitigate against it.
    I would like to yield now to our ranking member on the 
subcommittee, a good friend and colleague both in the House and 
here in the Senate, and someone I have certainly enjoyed 
working with, to make any opening remarks. Senator Crapo.

 STATEMENT OF HON. MICHAEL D. CRAPO. A U.S. SENATOR FROM IDAHO

    Senator Crapo. Thank you, Senator Lincoln.
    I appreciate your holding this hearing and certainly agree 
with your comments about the need we have to address forest 
management in a proper manner and the opportunity we will have 
in the next few days to do so.
    I appreciate your hearing this hearing. Oak mortality is an 
important discussion and it is timely to be discussing the 
forest health, as you said, as the Senate considers the 
Interior Appropriations Bill, and the repercussions of an 
unmanaged forest.
    I just want to take a few moments to mention the concerns 
we have in Idaho. Although it will not be with the same 
species, this is a very similar issue, just to show that this 
is not just a local issue, one part of a regional issue, one 
part of the country.
    Oak decline in the Ozarks Highlands reflects many of the 
problems we face across this country. The contribution to the 
fuel load, the impact it will have on recreational 
opportunities, the effect on wildlife and the repercussions to 
local economies are all repercussions of the oak.
    We do not have the red oak in Idaho and so we do not have 
the red oak borer in Idaho. We do have the Douglas fir and the 
Douglas fir bark beetle and the mountain pine beetle for the 
pines. The outbreaks of these insect infestations follow much 
the same course as the red oak borer.
    In Idaho, we went from 33,000 acres affected in 1996 to 
122,000 acres in 2000. The trees stressed by drought, root 
disease, and other insects increased the susceptibility of even 
healthy trees to these beetles, which then leads to epidemic 
populations.
    In another similarity, loss of the Western white pine and 
the risk that it poses to Idaho's forest is a potential outcome 
with the red oaks in the Ozarks. Like red oaks, the Western 
white pine is an economically, environmentally desirable 
species. The white pine, which by the way is Idaho's State 
tree, once dominated the forest ecosystems in the Northwest. 
Passive and inactive management have resulted in a dramatic 
decline in the abundance of this pine.
    In 70 years, we have lost 90 percent of this important 
species. The combination of factors that decimated the white 
pine has resulted in a species shift where the Douglas fir and 
other less fire resistant species have increased in abundance. 
This shift to a more densely populated species, compounded by 
the overgrowth, has resulted in a change to the ecosystem that 
lends itself to increasingly high risks.
    The United States has seen that the loss of the Western 
white pine and its replacement by less desirable species has 
had on the economic impact in rural communities. Wildlife loses 
habitat and increased catastrophic wildfires, and similar 
outcomes could be the result of the decline of the oaks in the 
South.
    I want to show a map just very quickly. This map is 2 years 
old. The red on this map is probably more intense today, if a 
current map were to be provided. This Forest Service risk map 
from 2000 shows that 70 million acres of forest land are at 
risk of mortality from insect and disease. It is more 
distressing when you consider the fact that about one-third of 
our nation's land is composed of forest, as is shown by the 
gray. Yet, that red is taking over and is growing every year.
    This is an issue that touches Americans in every walk of 
life. Already this year, we've seen 6.3 million acres affected 
by wildfires and the suppression costs are reaching $1 billion. 
This devastation follows the 2,000 fire season where 8.4 
million acres burned with a suppression cost of $1.36 billion.
    Sadly, these costs and these outcomes were not unexpected. 
Fires are a natural part of a healthy ecosystem and provide 
numerous benefits. In an unhealthy forest, these fires can burn 
with an intensity and size that is destructive with all of the 
impacts that we have previously discussed. They also present a 
significant safety risk and cause economic loss that hits most 
communities very, very hard.
    Madame Chairman, I have more that I would like to submit 
for the record, but I would just like to tell you that I look 
forward to an interesting discussion with regard to these 
witnesses that we have today and hopefully gain a better 
perspective on the level of the problem we have.
    I can certainly tell you that we, in Idaho and in the 
Pacific Northwest, though we do not have the same species and 
the same insects, certainly share your concerns and hope that 
we will be able to work together to find a common solution to 
the problem for the entire country.
    [The prepared statment of Senator Crapo can be found in the 
appendix on page 36.]
    Senator Lincoln. Thank you, Senator Crapo. Without a doubt, 
we all recognize that not only do we have forest health issues 
in Arkansas but Idaho, Montana and California have some real 
difficult problems that they are going through.
    We are hoping that today's hearing will bring to light not 
only the critical problems that our forests across the country 
are facing, but some of the ideas and the ways that we can look 
to mitigate some of those problems.
    Senator Carnahan has requested to testify before the 
committee this morning, and we are delighted that she is here. 
She and I are both aware of this problem that this epidemic has 
caused in both of our states.
    We are very pleased to have you before the committee, 
Senator Carnahan.

 STATEMENT OF HON. JEAN CARNAHAN, A U.S. SENATOR FROM MISSOURI

    Senator Carnahan. Thank you very much, Madame Chairman, and 
I thank you for your leadership in convening this hearing, and 
certainly Senator Crapo for his words and his commitment to 
this problem, as well.
    As you know, oak decline is a serious issue in Missouri. I 
want to thank you for inviting Robert Krepps, Missouri's Chief 
Forester, to testify today. He has been working hard to manage 
oak decline in Missouri for many years. I believe his testimony 
will be valuable to this subcommittee.
    Although we cannot outwit Mother Nature and halt oak 
decline, by working together we can at least mitigate its 
impact. Mismanagement of our forests many decades ago is the 
prime culprit behind the thousands of dead trees that we see 
today.
    Fortunately, we now know how to prevent the mistakes of the 
past. A diversity of trees is integral to good forest 
management in Missouri's Ozarks. Although beautiful and stately 
in their own right, it is clear that oaks must share the forest 
with other species of trees.
    Today's foresters and responsible land stewards have the 
capability to manage our woodlands in a sustainable and 
profitable manner. When they do, wildlife, jobs and natural 
beauty are all protected.
    Beyond learning from the past, we must also plan for the 
future. Action taken today will determine what our forest will 
look like at the turn of the century. A comprehensive and 
immediate response to oak decline is essential to Missouri and 
other states' suffering.
    I am pleased that several government agencies and other 
stakeholders have taken important steps to access and respond 
to the decline. We must make sure that public agencies and 
private stewards of the land share best management practices. 
The need for a coordinate response between State, local and 
Federal agencies working closely with the private sector cannot 
be overemphasized.
    In Missouri the Department of Interior, the U.S. Forest 
Service, the U.S. Army Corps of Engineers, the Missouri 
Department of Natural Resources, the Missouri Department of 
Conservation, and several other agencies manage land affected 
by oak decline. In addition, 85 percent of Missouri's 14 
million forested acres are owned by the private sector. We must 
acknowledge and cultivate the private sector that is so 
essential in forest management.
    Government agencies must also be a party to and not a 
hindrance in these efforts. Missouri's 500 sawmills and over 
34,000 jobs that depend on the wood industry are now being 
jeopardized by oak decline. Sadly, a majority of these jobs are 
in counties that do not share in the prosperity of the 1990's. 
Many of these counties have unemployment rates among the 
highest in the State. We must do all we can to protect these 
jobs in our rural areas. This hearing is certainly an excellent 
step.
    My home is in the Missouri Ozarks, an area that is 
unparalleled in beauty and serenity. In fact, as I look at 
these photos displayed here today, I feel very much at home. 
They could have been taken anywhere on the land on which I live 
in Phelps County, Missouri.
    Our stately forests are blemished by thousands of acres of 
dead oak trees that mar the landscape. The decline of our oaks 
threatens one of Missouri's most vibrant industries, tourism. 
Families from across Missouri and the world vacation in 
Missouri because of our scenic outdoors. They come to enjoy our 
clean streams, our lush forests, and abundant recreational 
opportunities. Sportsmen rely on the acorn-lined forest of the 
Missouri Ozarks to supply food for deer and turkey and game 
species.
    Declining oak populations will almost surely lead to 
profound changes in wildlife populations. Responding to and 
changes in wildlife population is key to Missouri's tourism 
industry and rural lifestyle. Thousands of Missourians rely on 
tourism dollars for their livelihood. Tourism contributes $12.5 
billion to Missouri's economy every year. These jobs, like 
those in the wood industry, must be protected.
    I look forward to reviewing the testimony of today's 
hearing and I hope that the experts that you have convened will 
help us to understand what must be done to promote the long-
term health of our forests. Missouri's picturesque and 
bountiful forests are among our State's most precious 
resources. Their protection is worthy of our best efforts.
    Again, thank you, Madame Chairman, for the opportunity to 
testify today.
    Senator Lincoln. Thank you, Senator Carnahan. We appreciate 
you bringing not only the interest of the people of Missouri, 
but your personal experiences as well. That is very important.
    I know that the committee welcomes you behind the dais, if 
you would like to join us, if you have time that permits.
    Senator Carnahan. I may have to go, but thank you.
    Senator Lincoln. Absolutely. We appreciate it. Thank you 
very much, Senator Carnahan.
    Senator Carnahan mentioned there are so many different 
aspects of how this epidemic affects our forests and other very 
important things that come from our forests, not just the 
forest itself but the acorn crops and the wildlife that are 
supported. Even those that are passing through. I know in 
Arkansas we support a tremendous population of neo-tropical 
migratory birds that come through and use our forests as a 
stopping over place.
    We are happy to welcome our first panel of witnesses this 
morning. We begin with Tom Thompson, who is the Deputy Chief of 
the U.S. Forest Service and Charles Richmond, who is the 
Supervisor of the Ozark-St. Francis National Forest in 
Arkansas.
    I understand that Mr. Thompson will deliver the oral 
testimony and then both of you will be available to answer 
questions; is that correct? Great. We look forward to your 
testimony. Mr. Thompson.

STATEMENT OF TOM THOMPSON, NATIONAL FOREST SYSTEM DEPUTY CHIEF, 
               ACCOMPANIED BY CHARLES RICHMOND, 
         SUPERVISOR OF THE OZARK-ST. FRANCIS NATIONAL 
                             FOREST

    Mr. Thompson. Thank you, Madame Chairman and members of the 
subcommittee. We appreciate this opportunity to appear before 
you this morning. I am Tom Thompson, Deputy Chief of the 
National Forest System, Forest Service. I am here today to 
provide the Administration's comments on the oak mortality 
situation in Arkansas.
    Accompanying me is Charles Richmond who is the Forest 
Supervisor on the Ozark-St. Francis National Forest.
    Certainly, as has already been spoken of this morning, the 
health of some of our forest and rangelands are deteriorating 
and they are stressed to the point that insects, disease and 
wildfire kill literally millions of acres of trees each year.
    In response, Federal, State, tribal, and local governments 
are making concerted efforts to restore our forests and 
rangelands to healthy conditions. These efforts include 
reforestation, restoring fish and wildlife habitat, 
revegetating riparian areas, thinning, and prescribed burning.
    Additionally, the President's Healthy Forest Initiative 
will further existing efforts and establish a framework for 
protecting communities and the environment through local 
collaboration and restoration projects. The Initiative would 
provide for active forest management, including removal of 
diseased and infested trees, thinning of forests to reduce fire 
risk, biomass removal and utilization and other tools that will 
meet long-term ecological, economic, and community objectives.
    The President's Healthy Forest Initiative will also help to 
expedite active forest management activities which are often 
complicated by procedural delays and litigation. It will allow 
us to effectively maintain healthy forests and address forest 
health problems, including oak mortality in the Ozark/Ouachita 
Highlands in Arkansas, and do this in a timely manner.
    Forest Service surveys indicate that oak mortality has 
impacted well over 1 million acres of oak forest in the Ozark/
Ouachita Highlands of Arkansas. Factors such as advanced age, 
steep mountain slopes, poor rocky soil conditions, and 
overstocked forests set the stage for oak mortality. Drought 
and defoliation add additional stresses to the trees.
    Secondary agents such as insects and disease attack highly 
stressed trees that eventually succumb and die. In Arkansas' 
episode of oak mortality, several years of extreme drought and 
unprecedented population of red oak borer beetles contribute to 
that problem. The mortality is not associated with the pathogen 
that causes sudden oak death that was originally found in 
California and Oregon.
    Preliminary data from the Ozark/St. Francis National Forest 
suggests that as many as half of the red oaks on National 
Forest System lands are currently dead or dying. The increased 
amount of dead trees results in excessive fire danger, 
increased threats to life and property, and compounds other 
forest health problems.
    The Ozark/St. Francis National Forest in Arkansas is 
severely impacted with over 300,000 acres of the forest's 1.2 
million acres affected. The Ouachita National Forest in 
Arkansas, the Mark Twain National Forest in Missouri are 
affected as well, but to a lesser degree.
    The impact on private lands, which constitute 78 percent of 
the forested area in the interior highlands, is thought to be 
less severe and much more difficult to estimate.
    Mortality of Northern red, black, and Southern red oaks 
became particularly evident in 1999 following 2 years of severe 
drought. White oaks, hickories, and other species are affected 
as well, but to a lesser degree.
    A third year of drought in 2000 greatly made the problem 
more complex and mortality increased. Oak borer populations 
have exploded to unprecedented levels in the past 5 years. In 
2001, limited sampling in Arkansas found an average of over 400 
insects per tree. These numbers are vastly greater than any 
numbers previously recorded, which were four to six insects per 
tree.
    You can see by the oak bore here how devastating that can 
be, when they get that number of trees.
    Oaks are extremely important to this part of the country. 
Ecologically, the oaks are a source of food for squirrels and 
bear and turkey and deer. A lot of non-game animals, small 
mammals and birds depend on acorns for food.
    Economically, the red oaks are a highly desirable hardwood 
species used for furniture, cabinets, flooring and other 
building projects. Widespread loss of red oaks could severely 
impact the social fabric of the Ozark Highlands through job 
losses, reduced game populations, scenic quality, and tourism 
opportunities.
    According to forest inventory data in the recent Ozark/
Ouachita Highlands assessment, 25 percent of the board foot 
volume in the interior highlands is red oak, a total volume of 
something like 13.8 billion board feet. In timber terms alone, 
the dollar value of trees at risk exceeds $1.1 billion.
    We have a strategy in place that has been worked on from an 
interagency standpoint, the State and Federal organizations. 
That strategy includes five key components: public safety, 
public awareness, inventory assessment, management strategies 
for prevention and suppression and restoration and research.
    In looking at the situation overall, I guess the short-term 
challenges are certainly to provide for the safety of forest 
users and create a healthy environment for future forests to 
grow and flourish. Oaks thrive in a forest that is managed, one 
that is free from excessive fuels, that incorporates natural 
and manmade activities in order to sustain healthy ecosystems.
    The long-term challenges that we face include development 
and implementation of strategic management actions founded on 
sound science that will result in healthy, resilient forests 
for generations to come. We are working to address both the 
short and the long-term challenges and will be able to do so 
even more effectively and efficiently under the President's 
Healthy Forest Initiative.
    This concludes my statement and Mr. Richmond and I would be 
happy to respond to any questions that you might have.
    [The prepared statement of Mr. Thompson can be found in the 
appendix on page 42.]
    Senator Lincoln. Thank you, Mr. Thompson, your complete 
statement will be included in the record. We appreciate it very 
much, and we appreciate your service.
    I want to particularly say how much we appreciate what Mr. 
Richmond does in Arkansas. He does a fine job and he is great 
to work with.
    In your long service in the Forest Service, Mr. Thompson, 
have you ever seen a forest health issue as bad. Is this oak 
mortality epidemic evident in other parts of the country? How 
are they similar?
    Mr. Thompson. Well, it is certainly a classic example of 
all the factors coming together at the wrong time. The age of 
trees, site conditions, and the extreme drought and the 
conditions brought on tremendous explosion in populations. It 
is not uncommon when you get a very mature forest, and one that 
is not able to withstand the kind of stress that exists here.
    Certainly, in the National perspective, this red oak borer, 
but more importantly just the entire oak decline, is one that 
is tremendously troubling. It is very similar, however, to the 
stress that Senator Crapo was alluding to with regard to 
whether it is the mountain pine beetle or the spruce bark 
beetle or the Douglas fir, where you get conditions where trees 
are stressed, you get drought, and you get very mature trees, 
you get these kinds of outbreaks.
    Senator Lincoln. When I first came into Congress in 1992, 
we both came into the House in the same year, in 1992, I 
remember one of my first official tours of the national forest 
in Arkansas, and I took my father along, who knew every tree 
and every trail and every inch of that forest. When we got back 
I asked him, I said did they show us all of it? Did they show 
us everything we needed to see?
    He said well, they showed you most of it. There are a few 
things that you did not see that you probably should have. He 
said but what so many people do not understand is that the 
forest, although it is beautiful and there are some healthy--
and as you mentioned the age of the trees--some old stately 
trees, he said a hundred years ago this was pastureland. If you 
want to keep it healthy and you want to keep the forest growing 
and healthy, and you want to maintain those stately trees and 
you want to maintain them consistently, you must manage the 
forest.
    That is something that is important for us to look at at 
this point, as we are seeing the age of these trees 
consistently reaching the same situation. Like you said, almost 
a textbook situation of all of these conditions coming together 
at one time. We have to be very cognizant of that.
    The severe oak decline, it is not just a disaster waiting 
to happen.
    Over a million acres of red oaks will be impacted just 
during this year throughout just Arkansas and Missouri.
    Can you give us an indication of how the National Forest 
Service, on a national level, is going to make oak mortality a 
priority?
    Mr. Thompson. The challenge that we have at this stage is 
the state of the forest and the epidemic is so advanced and so 
great, the most important thing that we can do is provide the 
public safety, to make sure that people are aware of the 
problem and understand the problem, to look at management 
strategies that will allow us to treat those acres where we can 
do removal of trees. The area is so large that it is obvious 
that you cannot treat it all.
    Then there are some research questions that need to be 
answered and continue to look at these factors and how they 
interplay. Certainly it takes a tremendous amount of 
interagency cooperation and work. Prioritizing our efforts, 
though, our principal focus is on public safety, making sure 
that we remove those trees that present a hazard to 
campgrounds, homes, highways, trails, those kinds of things. 
The trees, when they get that kind of riddling in them, are 
very weakened and certainly do pose a threat.
    In the longer term, the approach that we have to take, and 
this is not unique to Arkansas but across the country, is to 
remember the role of management and active management in the 
treatment of our forests. We probably have better science, 
better information, more knowledge and more professional 
ability to do active management then we ever have done, and do 
it in an environmentally sensitive way.
    Where we have failed to do that over time, or conditions 
have extremely worsened, we find ourselves behind the curve. 
You just cannot catch up with it in a couple of years. What 
happened in the last four or 5 years in Arkansas is an example 
that we should learn from and we should be looking for places 
where we can prevent that from happening.
    At this stage, what we can do is just basically deal with 
the situation as best we can and try to restore oak where we 
can, and make sure that in the longer term it is a part of the 
ecosystem.
    Senator Lincoln. Well, I go back to my first question, and 
that is have you ever seen anything that has happened as 
rapidly or as quickly? Your answer there indicates that these 
things have happened very quickly and it is something that we 
have to make sure that we do not let happen again.
    Mr. Thompson. Tremendous impact, tremendous devastation.
    Senator Lincoln. Mr. Richmond, just a couple of very quick 
questions. When were the conditions of the oak decline first 
detected on our national forest?
    Mr. Richmond. About 1999, we noticed that we had 
approximately about 20,000 acres and we called our 
entomologists and experts in and we talked a lot about oak 
borers and oak mortality. At the time, we thought that we would 
continue to lose some trees but it would not be this 
significant.
    In 2001, 2 years later, we had over 500,000 acres on the 
Ozark National Forest. As you said, it did spread very quickly. 
Hopefully, we are sort of peaked out. We have had a very wet 
summer and hopefully we can get around this thing in the next 
few years and at least slow it down. We probably can.
    Senator Lincoln. If we assume that the root problem is too 
many trees per acre, what do we need to actually restore the 
ecosystem to a healthy condition? What progress do you think 
that we could expect on that?
    Mr. Richmond. As Deputy Chief Thompson mentioned, we do 
have a strategy that has five elements. I can prioritize those 
very quickly for you that will answer that question.
    No. 1 is the public education. We just have to have public 
acceptance for management on the Ozark National Forest. We will 
spend a lot of time during the next few years working with our 
public, taking them on tours, showing them the situation and 
what we plan to do. That is critical.
    Safety, we have 1,800 miles of roadways that have thousands 
of standing dead oak trees that will fall across those roads, 
will be a safety hazard. We have hundreds of miles of 
recreation trails, dozens of recreation campgrounds, picnic 
areas. We are going to work very hard in the next few years to 
try to take those trees down and reduce that safety hazard.
    Then probably more to answer your question, our management 
strategies to restore the oak forest. There are a number of 
things that we must do in the next few years. One is to remove 
some of those standing dead oak trees out in the forest to 
allow light to the ground, so that oaks can grow and replace 
the dead stands.
    Then thinnings. We need to get out ahead of this epidemic, 
out in areas where we do not have oak borer, and thin those 
forests so they are healthier and can withstand an insect 
attack. They can compete better for moisture and be healthier. 
We have to do those thinnings out in the areas that are not 
affected now.
    We also need to get our age class distribution out on the 
forest more evenly distributed. Currently we have 60 percent of 
our forest that is 80 years or older. That is not a healthy 
situation. We need some more of the forest in earlier age 
classes.
    Prescribed fire is a tool that we have to increase greatly 
on the forest. Currently, we are burning about 30,000 acres a 
year. That probably needs to be up around the 100,000 acre a 
year mark, so that we can reduce the competition of those other 
species so that the oaks can get a head start and replace those 
dead trees.
    Then we are going to have several thousand acres of actual 
planting of red oaks that we will have to do, although that is 
very costly and we will not be able to do that except on the 
more productive sites.
    Senator Lincoln. Thank you very much. Senator Crapo.
    Senator Crapo. Thank you very much, Senator Lincoln.
    Mr. Thompson, in your testimony you indicated that there 
was something like a billion dollars in value at risk here in 
the oak forests. You also, both of you, have stress the 
importance of active management in the forest. Senator Lincoln 
indicated that one of the problems is too many trees per acre.
    The question that I have with regard to that is there are 
groups who believe--at least out in the West, and I assume they 
would have the same position in the South, that we should not 
do anything in the forest, that we should not log the forest 
period.
    The question I have is does this notion of active 
management or the management strategy that you are talking 
about for the red oak, does it include logging?
    Mr. Thompson. Most certainly. From the standpoint of 
removing, whether it is for fire or for insect and disease, and 
they are many times, unfortunately, connected. When you have 
insect and disease, you have dead material and then you have a 
fire hazard which is just much greater than it was before. If 
you do not remove material in some way, you always will have 
the fire risk, and that is virtually across the entire country.
    Getting the amount of biomass down so that when you do have 
a fire, a natural fire occurs, that the intensity of that fire 
does not damage the site so that you lose productivity over 
decades and decades and decades, you have to remove the amount 
of material that is on the ground.
    That, in turn, adds to what the Forest Supervisor was 
talking about, with regard to allowing the diversity of ages to 
come in, which hence creates more of a self-protective 
mechanism in the forest, to where younger trees withstand the 
attacks. You may lose some old trees, but there is not enough 
old trees that it carries the kind of epidemic that we are 
seeing here.
    Those kinds of systems are the same in pine stands all 
across the West. It is using the tools that we have, 
recognizing that you are not going to do it every place. 
Certainly where you have high value for scenic, high value for 
harvesting of a product where we have very suitable ground, it 
is very important to manage with all of the tools that you 
have. Mechanical treatment, whether it be commercially or 
through stewardship contracts and other ways, is an approach 
that we need to take.
    Senator Crapo. Does the extent of the harvesting or the 
thinning that you were talking about here, for management 
purposes, for the health of the forest and for the safety 
concerns, does that allow for viable economic benefit to the 
private sector in terms of those who would come in and conduct 
the thinning and the management activities? In other words, is 
there another objective that can be achieved here? Or are we 
talking about such a small scale that it really does not matter 
economically?
    Mr. Thompson. When you look at these factors, the key is a 
sustained program, a sustained program. That is the key as far 
as prevention, as well. It does not do any good to throw a lot 
of effort to it for a few years and then let it get out of 
balance again.
    From an economic standpoint, the tools that we have and the 
needs that we have to use people that can remove material and 
make a marketable product out of it, you have to sustain that 
over a long period of time. If you cannot come up with a 
program that goes on for years and years and years, then you 
have not got a viable program or a solution.
    You lose the capability to treat, too. There is only so 
many ways to do it and you need to sustain those folks that do 
that work.
    Senator Crapo. In the current debate that we are having 
here in Washington, there are some who are saying well OK, if 
we need to get in and do some management in the forests, then 
we should do it just in the areas around the urban communities 
to protect them from the fire risk.
    I personally believe that that ignores the much broader 
issues that we are talking about here, but I would like to get 
your opinion on that. This issue is not just limited to areas 
close to urban communities, is it?
    Mr. Thompson. The insect and disease problems certainly do 
not. From a fire standpoint, obviously there are priority areas 
where you can treat, through that wildland/urban interface. The 
issue still goes beyond that. If you have to prioritize where 
you would treat first, certainly for fire purposes, it would be 
in the wildland/urban interface.
    Again, there are other issues as well. Watersheds, huge 
watersheds and domestic watersheds go quite a long ways from 
the wildland/urban interface and are very important to protect, 
as well.
    Senator Crapo. I would like to take time to ask one more 
question, if I could.
    Senator Lincoln. Absolutely.
    Senator Crapo. About 2 years ago I went into an Idaho 
forest with our forest supervisor and they showed me an 
infestation of several different things. There was an insect 
infestation as well as a disease that was hitting the trees. In 
this particular section of the forest, the Forest Service was 
proposing some thinning activities that would need to be 
conducted to help address these disease and insect infestation 
problems.
    A thinning sale proposal was put forward and went through a 
very extensive public process where concerns were brought 
forward, the proposal was modified several times. Then it was 
let out. It was then immediately challenged in court.
    I went into that same forest with the forest supervisor 
again just a month or so ago. Nothing has happened there. The 
forest is in even worse condition, it is more of a red spot on 
this map now.
    What happened was that the litigation was brought by people 
who did not participate in the whole process, as the whole plan 
and proposal was being developed and put together. Issues were 
raised that had never been raised before.
    About 90 percent of the proposal was approved by the court, 
but there were a few procedural things that were really--the 
Forest Service was willing to drop them to get on with it, but 
they were sent back to handle. They just decided to drop the 
whole thing because now it was too late.
    Even though there pretty much was no problem, even after 
the court review, with what they were doing, the management in 
this particular case did not occur and the forest is now being 
lost. There are things we are going to be able to do hopefully, 
but they do not know really what to do because they are going 
to get in the same cycle again.
    My question is is there a solution that you can see to this 
problem? What can we, as policymakers, do to help us get past 
this litigation paralysis that we face today?
    Mr. Thompson. The President's Healthy Forest Initiative 
will identify a number of those areas legislatively. There also 
are a number of things that we can do administratively. 
Ultimately it comes back to again what the Forest Supervisor 
was talking about with regard to public awareness and 
understanding of these issues.
    We are in a world where choices need to be made and there 
are consequences to those choices. The fire season of this year 
and the past year, as we have seen the consequences of some 
choices that were made that maybe were not the right choices. 
We have had devastating losses. We have had loss of life, 
tremendous loss of resource and tremendous loss of capability 
to product clean water and wildlife and recreation.
    The solution is building the public awareness and support 
for active management. The national forest public lands across 
this country, whether they be State, Federal or local, as I 
said before, we have tremendous scientific knowledge. We have 
tremendous capability professionally to manage. It is a time to 
try to pull together and understand that in the public 
interest, some choices need to be made. Active management is 
one of those.
    Building the kind of support that we need is going to take 
some time, rebuilding some trust, and understanding the 
consequences. In Arkansas, you have a very visible evidence of 
the consequences of not being aware of the situation overall, 
and everybody looking at it and loving the beauty for years but 
not recognizing the consequences of not doing something in some 
places.
    Obviously, disturbance elements are going to continue in 
our forest. There are disturbance systems. With the knowledge 
we have, there are things we can do about it. That is what the 
Healthy Forest Initiative is all about, and we certainly look 
forward to working with the Senate and the House in trying to 
come to some better futures I guess, and better approaches in 
how we deal with the very problem that you have explained.
    Senator Crapo. Thank you.
    Senator Lincoln. Thank you, Senator Crapo.
    Just to build on his question, I have read through the 
President's Healthy Forest Initiative and many of the points 
that you make and that are made in that initiative are points 
that have been championed by many of us here in Congress for 
some time. Knowing how long it does take us to get legislation 
passed here, we do not work at breakneck speeds oftentimes.
    You talk about parts of the initiative that the 
Administration can accomplish without the passage of new laws. 
I am assuming you mean this educational process, of better 
awareness that can be brought to the public. How much of that 
has been started? Really what parts of that will help our oak 
mortality problem in the Ozarks? I mean, are we too far gone? 
What type of educational initiatives have you started and how 
quickly are they going to be in place?
    Mr. Thompson. In addition to the education, there are a lot 
of other things we can do administratively that will help with 
the problem.
    Senator Lincoln. Without requiring us to pass laws.
    Mr. Thompson. Right, but there are elements on both sides 
that would be helpful. Administratively, looking at 
streamlining of our procedures and the Chief of the Forest 
Service spoke up here months ago about process, predicament and 
how we can move through some of those process. Through 
streamlined processes on an interdepartmental interagency 
manner, so that we do not spend all of our money and all of our 
energy just going in circles on process, whether that be for a 
National Environmental Policy Act, trying to figure out ways to 
do consultation on the Endangered Species Act better and more 
efficiently, looking at ways to streamline those processes are 
probably some of the greatest ones.
    One of the other areas that we can do better at is 
improving our ability to manage complexity in projects at the 
ground level, of helping our managers to understand when you 
have enough information to make a decision and get on with 
making decisions in a more timely basis.
    One that I talk about an awful lot is the prevention side. 
Prevention of more process, looking and examining everything 
that we do to make sure that we do not already have that 
information. We have a perpetual kind of just keep adding more 
and more to that, and that is very, very difficult.
    The public awareness is one that uses the examples that are 
showing up in Arkansas and Idaho, using the examples that we 
see from the fires of this summer, and understanding the 
connectivity between what we do and what the result of that is 
the public can understand that. The public understands it 
better today than they did before the 2000 fire season. They 
understand it better this year than they did even after that.
    Senator Lincoln. Is the streamlining of those processes 
within the Agency, that is currently occurring?
    Mr. Thompson. We are working very hard. We have been for 
several years on some of those. We have stepped up our efforts 
and we are focusing on it very intensely right now to overcome 
some of those process issues.
    Senator Lincoln. Mr. Richmond, I know you will understand 
the educational part of that, which if it has not already 
occurred, will occur rapidly in Arkansas. Our home state 
university is up in the Northwest corner of our state and 
everyone travels to the football games and they go through the 
Ozark Forest. It is part of the joy of going to the football 
game is seeing the trees and the forest on their way to the 
university.
    I am sure that we are already bracing ourselves in the 
office for the calls we are going to get about what they see in 
comparison to what they have seen over the past couple of 
years. Some of that education will happen whether we initiate 
it or not.
    I am aware, Mr. Richmond, of the press release that you put 
out last week, detailing that you are beginning a program to 
remove infested oak trees within the Ozark National Forest that 
pose an immediate hazard to health and welfare of visiting 
public. Mr. Thompson has mentioned that obviously safety was 
the very first, and you had mentioned that as well.
    Have you already seen an impact to the forest tourism in 
Arkansas?
    What should we be telling the traveling public who venture 
out into our forest?
    Mr. Richmond. I do not know that we have had a great 
reaction from the visiting public yet. We probably will have 
that as these trees definitely begin to fall and are blocking 
highways and that sort of thing. We need just to be telling the 
public that there are consequences to management and----
    Senator Lincoln. Or lack of.
    Mr. Richmond. Or lack of. As the Deputy Chief mentioned, we 
have an excellent opportunity, an excellent demonstration to be 
able to show people that.
    Senator Lincoln. I know in our particular instance, the red 
oak borer is a 2-year cycle, so we talk about how quickly this 
has happened, and I am assuming we will also see how quickly 
some of that destruction and some of those safety problems will 
occur as those red oak borer, go into cycle in 2003 again, do 
they not?
    Mr. Richmond. The insects will emerge from the trees in 
2003. At that time, we do not know whether the epidemic has 
slowed or is continuing and is----
    Senator Lincoln. Or is escalating. Thank you.
    Did you have any further questions?
    Senator Crapo. No, I do not have any further questions.
    Senator Lincoln. We are delighted to have been joined by my 
colleague from Arkansas, Senator Hutchinson, if you would like 
to ask some questions of our panel or make a statement or 
however you want to proceed.
    Senator Hutchinson. Why do we not just continue. I 
apologize for being tardy. We had a meeting on Iraq at the 
Pentagon and that is the only thing I would have missed this 
for. Just go ahead.
    Senator Lincoln. OK. You do not have any questions?
    Just one last question in terms of educating the visiting 
public and those that are actually using the forests. What 
about land owners? What actions, maybe you might indicate to 
us, Mr. Richmond, what actions are being taken or do you think 
you will be taken to educate land owners and motivate them to 
do something about the problem? They normally do work very well 
with our State foresters and I am assuming that is the case 
with this.
    Mr. Richmond. State Forester John Shannon can probably 
answer that when he is up here in a few minutes, but we have 
worked very closely with him and his employees in his agency. 
We have put out several brochures, question and answer sheets 
for those that call in. We have had a lot of requests, and his 
department has been answering calls almost daily about what to 
do and they have actually been going out and helping, assisting 
private land owners to both identify the insects and also come 
up with management strategies for their lands.
    Senator Lincoln. Thanks. Just in conclusion, Mr. Thompson, 
you mentioned something about watersheds earlier. In looking at 
what we are dealing with, and I will be asking the second panel 
the same thing here, is there anything particular you want us 
to know or that you think is very important to be made public 
about the effects that this epidemic will have on municipal 
watersheds as well as the potential for the species issue which 
you also mentioned very briefly, the threatened or endangered 
status as a result of the epidemic and what it may cost, both 
for us locally, but also on a national level?
    Mr. Thompson. In general, it is, again, the connectivity 
between an insect and disease epidemic like this, the change in 
structure, the increase in susceptibility to fire, and then the 
effects of that to a watershed or to a viewshed, a scenic area, 
those kinds of things. In the forest, everything is connected, 
and when you have something like this that puts a tremendous 
change to the system, it is basically going to affect 
everything there. It is going to affect wildlife species, it is 
going to affect water, it is going to affect certainly the 
recreation values that are in the forest.
    Dealing with that, those extreme shifts, is going to be 
difficult, and there will be certainly some major short-term 
impacts. Hopefully, through restoration activities, the species 
diversity can be maintained and we can keep oak in the system 
and doing well and future generations will be able to again 
enjoy the beauty and the value that comes from that diversity 
in the forest. It is going to take some hard work to restore 
and it is going to take some concentrated, sustained effort to 
keep the forest healthy.
    Senator Lincoln. Mr. Richmond, do you have any comment on 
particular watersheds or species that could be affected in 
Arkansas?
    Mr. Richmond. The wildlife situation, the species, is 
probably the largest issue for us. Watershed-wise, these trees 
will be replaced, but they will be replaced with species other 
than oak if we do not do the restoration. That leads us to the 
species question, and in the Ozark Highlands, there are so many 
species that just have to have the lakes and the mass crop that 
those oaks provide. That is where we are going to see the 
largest impact if we cannot restore the oaks in those 
landscapes.
    Senator Lincoln. We thank you both very much, gentlemen, 
and Mr. Richmond, thank you again for the service that you 
provide to Arkansas.
    Mr. Richmond. Thank you.
    Senator Lincoln. Mr. Thompson, we appreciate your work, as 
well.
    As these gentlemen are exiting, I would like to call the 
second panel.
    Senator Hutchinson. Madam Chairwoman.
    Senator Lincoln. Yes?
    Senator Hutchinson. Could I ask unanimous consent that I 
have a statement to put in the record----
    Senator Lincoln. Without objection.
    Senator Hutchinson [continuing]. A couple of questions. I 
am not sure what was covered and what was not, so if I can just 
put those questions in the record for the panel.
    Senator Lincoln. Without objection, so ordered.
    [The prepared statement of Senator Hutchinson can be found 
in the appendix on page 47.]
    Senator Lincoln. I am very delighted that our second panel 
has taken time out of their schedules in Arkansas and Missouri 
to join us this morning. We have with us John Shannon, who is 
the Arkansas State Forester, Jim Crouch of the Ouachita Timber 
Purchasers, Scott Simon of the Arkansas Nature Conservancy, and 
Robert Krepps of the Missouri Department of Conservation. Mr. 
Krepps, I hope you do not feel outnumbered by the Arkansans 
here on the panel, but we are very delighted to have everybody 
here from our neck of the woods in this country.
    The committee has also received written testimony from the 
Ozark Woodland Owners Association and the Arkansas Game and 
Fish Commission that we will insert into the hearing record at 
the appropriate place.
    [The prepared statement of the Ozark Woodland Owners 
Association can be found in the appendix on page 54.]
    [The prepared statement of the Arkansas Game and Fish 
Commission follows can be found in the appendix on page 67.]
    Senator Lincoln. Gentlemen, we are all delighted you are 
here. We would like to ask you to try to limit your testimony 
to around 5 minutes, but please rest assured that your entire 
statement will be included in the record of the committee.
    We can just start with Mr. Shannon. Welcome.

        STATEMENT OF JOHN T. SHANNON, STATE FORESTER OF 
   ARKANSAS, ON BEHALF OF THE NATIONAL ASSOCIATION OF STATE 
                           FORESTERS

    Mr. Shannon. Thank you, Senator. It is great to see you 
again, and thank you so much for inviting the National 
Association of State Foresters to be here. Today, I will try 
not to wear my Arkansas State Forester hat and I will try to 
speak on behalf of the National Association of State Foresters.
    It is meaningful to me as an Arkansan that both of you are 
here. We appreciate it more than we can tell you. Thank you for 
being here and for calling this hearing.
    Senator Crapo had to step out, but he is right. Forest 
health issues are much broader than the Ozark Highlands. It is 
a significant issue from Idaho to Florida. He could look at 
that map. There are too many red spots. State foresters are 
interested in all those issues, but in Missouri and Arkansas 
and Oklahoma, this oak mortality issue is of acute interest to 
us.
    I am going to focus on one aspect, and that is the wildfire 
danger that has increased because of this oak mortality. You 
have heard it before, so I will skip through it quickly. The 
trees, the oaks in the Ozarks, are generally really old. The 
acres are generally way overcrowded. The sites are generally 
very poor, very thin soils, very droughty soils. Red oak borer 
is as natural as rain. It is a native species in the Ozarks. It 
is not going away, even if we want it to.
    We had a drought in 1998. We had a drought in 1999. In 
2000, we had a knock-out punch of a drought. All those 
conditions combined are terrible if you are a red oak, but they 
are really good if you are a red oak borer, really good. The 
population of red oak borers just skyrocketed.
    The numbers are--and we are not sure about the numbers, it 
is one of the problems we have now--at least half a million 
acres of dead oak trees. I would say the number, including 
private land, is probably closer to a million acres of dead oak 
trees. I tried to do a little homework last night, a little 
arithmetic. How many trees are we talking about? I am confident 
to tell you tens of millions of dead oak trees.
    As you drive through neighborhoods around here and see 
folks have stacked a rack or a cord of oak firewood waiting for 
the winter, there is a reason they choose oak. It really burns 
hot. It really burns a long time. Now we have at least half a 
million acres of that stuff stacked up in the Ozarks. I would 
like you to understand the risk of wildfire has significantly 
increased. On average, we believe the fuel loading has 
increased approximately 350 percent. Now, if you have a 350 
percent increase in the fuel loading, the old ways we fought 
fires and the equipment we used just is inadequate.
    Not only has the fuel loading tremendously increased, but 
the type of fuel has changed. We were talking about hardwood 
leaves back 5 years ago. Now, we are talking about big, heavy 
oak timber. It is a whole different fuel type. Those fires burn 
a lot hotter, burn a lot longer. The acreage will be much 
bigger, and those types of fires are much more dangerous for 
civilians and for fire fighters.
    I will bet you I am not the only supervisor of forestry 
employees in this room who have had one of his employees killed 
fighting a wildfire, and I am telling you, that is a very 
traumatic event for an agency to deal with, and we have been 
through it in Arkansas. Twenty people have been killed out West 
this summer--we ought to do what we reasonably can do to reduce 
the risk of wildfire.
    That brings me down to two recommendations, and these are 
captured, Madam Chair, in my written comments. Missouri, 
Arkansas, and Oklahoma have to upgrade their fire fighting 
equipment. Arkansas has started. We just committed about 
$800,000 to upgrade our equipment, and that is totally 
independent of whatever this committee may do. My two 
colleagues and I believe that the three States combined need 
approximately $2.4 million worth of equipment upgrades.
    Now, I remember Senator Everett Dirksen and I remember what 
he might have said about $2.4 million, and it is real money. It 
is not like the $1.3 billion that has been spent out West this 
summer. I mean, it is pocket change. Understanding that the 
Federal budget is terribly tight, there are ways we can share 
this cost, and some of the State foresters disagree on just how 
we should share the cost.
    I recommend, and this is more of a personal recommendation 
now, that the Congress and the States split the cost, that the 
three States proportionally come up with a total of $1.2 
million and that the Congress help us with $1.2 million, a 50-
50 cost share, dollar-for-dollar, and we will get that 
equipment in the field and we will put out the fires. We will 
do the work.
    I know there are some States, like Oklahoma, that will have 
a terrible time even meeting that 50-50 match, and they have 
recommended that the match be in-kind, such as our time, 
keeping record of our time on fire fighting. Either way, we 
really do need help from Congress on gearing up for these 
wildfires.
    The second recommendation I have, Madam Chair, is we rely 
on volunteer fire departments in rural Arkansas very, very 
heavily, especially throughout the Ozarks. These are poor 
communities, and often the only fire fighting equipment they 
have is Federal excess personal property, which means worn-out 
military trucks that the State forestry agencies acquire, bring 
to Arkansas, our home States, repair them so they operate, 
renovate them so they are available for fire fighting, and we 
give those trucks to the fire departments.
    Well, the priority for screening that Federal excess 
property changed several months ago and that source of fire 
fighting equipment has dried up. Congressman Ross has drafted a 
bill that his staff is still working on that will help restore 
the priority that fire fighters have just in the spring, and if 
you folks in this committee could work with Congressman Ross on 
getting that bill passed, it would be very helpful.
    I appreciate so much being invited here today. Thank you.
    Senator Lincoln. Thank you, Mr. Shannon. We appreciate what 
you do.
    [The prepared statement of Mr. Shannon can be found in the 
appendix on page 70.]
    Senator Lincoln. Scott Simon, thank you for joining us and 
what the Nature Conservancy does. We certainly enjoy working 
with the Nature Conservancy.

 STATEMENT OF SCOTT SIMON, DIRECTOR OF CONSERVATION, ARKANSAS 
                CHAPTER, THE NATURE CONSERVANCY

    Mr. Simon. Yes, ma'am. Good morning. Thank you for inviting 
us. Good morning, Senator Hutchinson. My name is Scott Simon. I 
work with the Nature Conservancy. I am their Director of 
Conservation. I am here with Joe Fox this morning, who is our 
forester.
    The Conservancy, as you may know, is an international 
nonprofit conservation organization. We work on protecting 
species throughout the world through private action and working 
with public agencies.
    The Ozark Mountains are really a center of biodiversity 
within North America and the United States. The Ouachita system 
and the woodlands and savannahs that occur there are the 
largest last remnant of a system that used to occur from 
Oklahoma to the Eastern seaboard. There are about 150 species 
of animals and plants that occur there and nowhere else in the 
world, so it is a really special place.
    Early explorers, like Henry Rose Schoolcroft and Joseph 
Mudd, as they traveled through the Ozarks, described an area of 
very open woodlands and savannahs, much like this picture here, 
free of understory brush and an open, diverse, herbaceous 
layer, and it was a system mostly maintained by fire. Native 
Americans, annual and biannual, set fires for a variety of 
purposes.
    Over the years, the system has changed, and about 80 to 100 
years ago, the Ozarks were cut, and over time, many of the 
fires were suppressed and the system looks like this middle 
picture here, the Ozarks that we love now. The new woods are 
much denser. Historically, when the woodlands were maybe 18 to 
30 trees per acre, currently, we see stem densities, on 
average, of 300 to 1,000 trees or saplings per acre, which is 
really a staggering increase, and those trees and stems are 
trying to compete for the same amount of nutrients, water and 
soil moisture and everything that has always historically been 
available to them.
    Many of the oak trees--a mature and healthy oak tree, white 
oak, will live to 250 or 300 years old, a red oak, 125 to maybe 
150 years old. This stressed system is vulnerable to outbreaks 
like the red oak borer, exacerbated by droughts, and so that in 
our opinion, the root cause of the current situation is simply 
too many trees per acre, as you describe.
    The effects, the long-term effects are concerning because 
there is nothing in the post-glacial record that indicates that 
the Ozark forests have had these sort of changes of this 
magnitude and rapidity and we are worried that many of the 
wildlife species and the rare species that occur only there and 
nowhere else may have difficulty adapting as the forest changes 
from predominately oaks to maples, ashes, and other species.
    What do we do? Historically, this group of folks here, we 
have the knowledge and experience to address this cause and 
return sustainability to the forest. In the long term, it is 
restoring fires ecologically and safely and of a frequency that 
the system has adapted to. In the short term, it is using 
mechanical thinnings and fire in combination to reach a lower 
stem density that is sustainable.
    There are several examples of ongoing projects that have 
shown positive results. The Forest Service in the Ozark 
National Forest, the Arkansas Game and Fish Commission, 
Missouri agencies, the Nature Conservancy, and the Heritage 
Commission have all worked on projects like this, using 
prescribed fire and ecological thinning with good results. The 
Forest Service has some proposed projects. One is an example 
that we have submitted with our testimony that is about 54,000 
acres in the Bayou Ranger District, and it is projects like 
this that we think are an example on what to do on a scale 
significant enough to restore the system to sustainability.
    We think that the three things that are needed to help 
facilitate this is there needs to be a Federal funding priority 
to help ensure that these projects are funded. Second, as the 
Forest Service staff mentioned and that you mentioned, Madam 
Chairman, ensuring that the process is streamlined so that 
these projects can move through quickly. Third, ensuring that 
new projects are encouraged so that we can start working on 
other areas, particularly in front of the existing infestation.
    It is clear that the changes that are happening in the 
Ozark forests are a threat not only ecologically, but also 
economically to the people that depend upon it, and that the 
major causes are fire suppression, leading to overly dense 
woods, and we know what to do about it. We have the technical 
experience and the history to be able to address it.
    The Nature Conservancy strongly encourages the use of 
prescribed fire and ecological thinnings to achieve a more 
sustainable density, and although the national forests in our 
public lands throughout the country have many needs, ecological 
sustainability, we feel, really must be the priority, because 
all of our other uses fall from this.
    With that, we greatly appreciate the opportunity to testify 
and share our time with you and thank you much for inviting us.
    Senator Lincoln. Thank you, Mr. Simon.
    [The prepared statement of Mr. Simon can be found in the 
appendix on page 73.]
    Senator Lincoln. Mr. Crouch, we appreciate your being here 
very much and look forward to your testimony.

STATEMENT OF JAMES R. ``JIM'' CROUCH, ON BEHALF OF THE OUACHITA 
 TIMBER PURCHASERS GROUP, OZARK-ST. FRANCIS RENEWABLE RESOURCE 
 COUNCIL, MARK TWAIN TIMBER PURCHASERS GROUP, AND THE AMERICAN 
                  FOREST AND PAPER ASSOCIATION

    Mr. Crouch. Madam Chairman, it is real pleasure to be here, 
and Senators, it is great to have you here too. I know you 
would not be anywhere else if you could possibly be here.
    I am Jim Crouch. I do represent the people that buy this 
timber in Missouri and in Arkansas and also today I am here 
representing the American Forest and Paper Association.
    We firmly believe that active management, based on sound 
science with local decisionmaking, is the way to go about 
restoring the health of our national forests. We do recognize 
very quickly that without some significant changes in the 
existing procedural requirements associated with NEPA appeals 
and litigation, that the Forest Service cannot take the timely 
action that it needs to take.
    The Forest Service predicts that the oak mortality crisis 
will impact over a million acres of national forest. About a 
billion board feet of valuable oak will likely die, fall down, 
rot, and as our State Forester says, probably burn. 
Unfortunately, what is happening is much more serious than 
anything that we have ever seen before. Instead of a few bugs 
per tree, there are literally thousands of bugs in some trees. 
The mortality is very widespread. It is not localized.
    In 1986, the Forest Service approved new forest management 
plans for all three of these forests. The plans did provide for 
thinning the overly dense stands of immature trees and it 
provided for the harvest and the replacement of mature trees 
with new forest. For a various number of reasons, these three 
forests fell way behind, and if you look today, they have 
actually accomplished less than half of the work that those 
forest plans called for.
    The Forest Service's failure to carry out the plans, 
coupled with the drought, has contributed greatly to the 
current crisis. Because of the widespread mortality, there is a 
major shift occurring in the composition of our forests. The 
dominant and predominant trees in the oak forests are mostly 
shade intolerant. The mid-story and understory is made up of 
maple, hickory, black gum, and other shade tolerant species. If 
nature is allowed to take its course, the new forest will 
change. It will be mostly maple, ash, black gum, hickory, that 
type of thing. It will be quite different from what we have 
today.
    Today, I believe that the Forest Service is at a fork in 
the road and must choose between whether it is going to restore 
the forest, which we call active management, or whether it is 
going to let nature have its way, which is passive management. 
Under the active scenario, the Forest Service would accelerate 
the restoration activities immediately using good science and 
using local decisions. The activities would include harvesting 
the dead and dying trees, followed by the silvicultural 
treatments needed to restore the oak forests.
    Under the passive scenario, which is what I am afraid will 
happen if there is not action from this body, the Forest 
Service would let these overstocked and overmature stands 
decline and die. The Forest Service would accept the losses and 
the increased risk of catastrophic fires. The oak forest would 
be replaced with maple.
    If the decision is to restore the forest, there is a 
limited window of opportunity. Dead and dying oaks lose their 
commercial value quickly and the risk of catastrophic fire 
increases as the trees die out and the falling branches 
accumulate on the forest floor. The agency must have new ways 
to comply with the key environmental laws if they are to get 
the job done quickly. There must also be a major increase in 
funds.
    The forest industry strongly recommends that the Forest 
Service choose active management and immediately launch a major 
restoration effort. The restoration of the land should be 
completed within 5 years of any harvest. The affected lands 
that are classified as suitable for timber management should 
retain a major oak component. Congress must either grant 
exceptions from the environmental laws and regulations or they 
must authorize some type of streamlining similar to what we saw 
recently in the Black Hills. Congress must provide new money. 
There is not enough money within the agency today to do these 
kinds of things and do their normal day-to-day work.
    In conclusion, the forest health crisis affecting the 
Ouachita and the Ozarks is acute. It is not unique. Due to 
decades of fire suppression, and more recently passive 
management, our national forests are rapidly approaching 
ecological disaster. We encourage you to find as many ways as 
possible to expedite the efforts of the Forest Service to use 
active management and local decisionmaking.
    With that, I want to thank you again for the very, very 
important job you are doing by holding this hearing and I know 
it will take a lot of action on your part, but we know you will 
do it. I will be glad to answer questions at the appropriate 
time. Thank you.
    Senator Lincoln. Thank you, Mr. Crouch.
    [The prepared statement of Mr. Crouch can be found in the 
appendix on page 78.]
    Senator Lincoln. Before we move to our Missourian, I also 
want to note that there is another Arkansan that has joined us. 
Congressman John Bozeman is in the back of the room and we 
appreciate very much your joining us, John. Thanks for your 
interest and input in this issue.
    Mr. Bozeman. Thank you for holding the hearing.
    Senator Lincoln. Absolutely.
    Mr. Krepps, thank you so much for joining us and 
representing Missouri. We would love to have your testimony 
now.

         STATEMENT OF ROBERT L. KREPPS, ADMINISTRATOR, 
     FORESTRY DIVISION, MISSOURI DEPARTMENT OF CONSERVATION

    Mr. Krepps. Thank you, Senator Lincoln. I am Bob Krepps and 
I am here today representing the Missouri Department of 
Conservation and the State of Missouri as the State Forester.
    The continued decline of forest health and the increasing 
mortality of red and black oak in Missouri and other States in 
the Ozark Highlands are very important issues to me as a State 
Forester, as they are to the Federal Government through the 
National Forest System. Businesses and citizens depend upon the 
forest resources of our State. I appreciate the attention of 
the subcommittee and am gratified by your efforts to become 
better informed on this issue.
    Factors such as site conditions that have been described 
here by the other folks providing testimony, including advanced 
tree age, drought, and insects and disease, are a few of the 
many factors that affect our oak forests. In my testimony, I 
would like to briefly describe the impacts on recreational use 
of lands affects by oak decline and mortality. While my 
comments are focused on Missouri, they certainly apply to all 
the States within the Ozark Highlands.
    Oak decline is most severe on ridge tops, south- and west-
facing slopes, and sites within thin, rocky soils. These site 
conditions describe much of the forest land around some of the 
most important and popular recreation areas in Missouri and 
certainly other areas in the Ozark Highlands.
    Much of Missouri's tourism industry is centered in the 
forested areas of the State, areas such as Lake of the Ozarks, 
the Branson area, Table Rock Lake, the Ozarks National Scenic 
Riverways, and the Mark Twain National Forest. Tourism is very 
important in Missouri. Tourism is Missouri's third-largest 
industry. It generates more than $12.5 billion annually for the 
State's economy and provides one of every 14 Missouri jobs.
    As travelers choose to travel into Missouri, one of the 
first impacts the visitors will notice will be the amount of 
dead and dying trees on the landscape. Visual impact will be 
very noticeable as trees die and deteriorate across the 
landscape. In some areas, large expanses of dead trees will be 
noticeable for several years. In other areas, factors such as 
fire will further impact the forest views. Changes in the 
scenic beauty of the forest can contribute to losses in tourism 
and recreation.
    How does this occur? Well, dead and declining trees located 
in areas receiving high recreational use are considered hazard 
trees due to the real danger of falling limbs and trees. 
Recently, I saw a photograph of an oak tree laying across the 
top of a camper trailer. Needless to say, the individual that 
was in the trailer at the time the tree landed on it was 
extracted safely, but the trailer was flattened to the ground. 
It gives you an idea of what some of the potential hazard is.
    Hazard trees combined with multiple targets, such as 
people, structures, and vehicles, greatly increase landowner 
liability. Hazard tree removal along roads, within campgrounds, 
parks, picnic areas, and hiking trails can be very expensive 
and time consuming. Often, managers are faced with a decision 
to remove the trees at a very high cost or close the facility 
to protect the public.
    On private land, and the trailer that I referred to was in 
a private campground, on private land, the reality is probably 
nothing will be done to reduce those hazards until something 
occurs to get private landowners' attention.
    Another primary recreational use of the Ozark Highlands is 
hunting of abundant wildlife, such as white-tailed deer, wild 
turkey, squirrel, raccoon, and other species. Many of these 
species depend upon acorn production as a major food source. As 
oak decline increases, a reduction in mast acorn production 
will occur, with the result being decreased populations of many 
wildlife species, which equates into decreased hunting 
opportunities.
    In the State of Missouri, for example, as our quail 
population has declined, we have also noticed a shifting of 
attention by hunters to other species or quitting entirely, 
quitting the outdoor pursuits. We have a concern that this will 
carry over into the future, as well.
    I guess, in summary, the overriding question, the 
management of oak decline and mortality, must be what are our 
objectives in managing the forest? In Missouri, we actively 
manage the State forest land, which includes harvesting and 
thinning where needed. On private lands, we encourage land 
owners to improve the vigor of their forests by thinning young 
stands and harvesting mature stands. We are actively using the 
provisions of programs in the Farm bill, such as EQIP, for 
forest health management on private lands. That is not without 
some prioritization and emphasis on those areas, and certainly 
there are conflicting laws that we work with that affect how 
effective we are in application of those on private lands.
    I guess what we do today will affect what our oak forest 
looks like at the end of the next rotation, and I certainly 
hope that our children and grandchildren will look back with 
pride at the efforts we put forth today.
    I guess a couple of things to dovetail into some of the 
other testimony, probably the most important thing we can do 
right now, that Congress can do, the Senate and the House, is 
to take a look at the myriad of laws that guide the 
implementation of programs on the national forests. Many of the 
laws conflict or give opportunities for inconsistent management 
practices. We need to work to get the National Forest System so 
they have the tools to rapidly respond to situations such as 
the oak decline situation that we are facing in Missouri. I 
would like to see more cooperative management projects 
encompassing Federal, State, and private lands.
    I appreciate the opportunity of being here this day and 
look forward to working with this committee in the future. 
Thank you.
    Senator Lincoln. Thank you, Mr. Krepps.
    [The prepared statement of Mr. Krepps can be found in the 
appendix on page 84.]
    Senator Lincoln. This is obviously a very immediate problem 
that needs our immediate attention and we will be continuing to 
call on you and others across the country to look at what is 
the best way that we can deal with it.
    Just a couple of questions and then I will pass it over to 
my colleague. Mr. Crouch, I have always praised the Forest 
Service for making our forests what they are today and have 
enjoyed working with them. I noticed in your testimony you 
talked about how the Forest Service has done their job almost 
too well in some ways. What should the Forest Service do to 
restore the oak ecosystem devastated by our oak mortality, what 
we are seeing here? Do you have any specific ideas that you 
would suggest to the Forest Service?
    Mr. Crouch. I really do, Senator, and I would like to just 
emphasize what you just said and what the National Forest 
Deputy Chief said. There is no question that within the agency, 
there exists a tremendous knowledge base and a tremendous 
ability and willingness, in fact, to do the things that need to 
be done to keep these ecosystems healthy. As you can imagine, 
in recent years, the agency probably has been as frustrated as 
many of us on the outside have been and a lot of things have 
not happened, and that is what I pointed out.
    On the Ozark and the Ouachita and the Mark Twain, they have 
had management plans now for the last 20 years almost that 
basically said you need to thin these young stands, you need to 
harvest the old trees, you need to use a commercial program as 
much as you can to save taxpayer dollars, and yet they have 
been challenged almost every time they try to do these things.
    That is why we talk so much about we have to do something 
with some of these laws that are really just bottlenecks, and 
it is not that the majority of the people are using them. It is 
a handful of people. I often wonder, in a democracy, how do we 
get to vote on these kinds of things rather than letting one 
individual completely stop it?
    To answer your question more specifically, I believe that 
the Forest Service on all three of these forests should 
immediately recognize the emergency, start a salvage program, 
maybe not use that word, but start a harvest program that will 
harvest as much wood as the forest industry can assimilate, 
recognizing that a lot of the infrastructure has disappeared in 
recent years, and at the same time begin to prescribe burn, 
begin to do timber stand improvement work trying to favor these 
oaks so that these future stands that we do have will have a 
significant component of red oak in it.
    I do not really hear or see much about any money to 
increase these programs, and obviously, supervisors like 
Charlie Richmond cannot do it out of the goodness of his heart. 
There is going to have to be some significant money flow in 
order for him to be able to do these bigger programs.
    Senator Lincoln. Right. Well, I can always remember my 
father telling me that too much of anything can be hazardous, 
even chocolate if you eat too much of it. Well, if there is one 
thing we have come to understand about our forests, it is that 
the diversity of those forests is very important, both in age 
as well as in species.
    Mr. Simon, in your testimony, you talk about the need to 
better reintroduce fire back into the forest ecosystem, and 
larger land owners, such as the National Forest and State 
lands, or even very large private land owners, this might seem 
practical. I am just curious, how would that apply to our 
smaller land owners? Is fire really a viable management tool 
for smaller land owners? We talk about the use of fire as a 
management tool on both public and private forest lands. I just 
wonder, how viable a tool is it for small land owners?
    Mr. Simon. Yes, ma'am. It is a viable tool for smaller land 
owners and the State with several agencies offers prescribed 
burn courses and technical assistance, as does the Nature 
Conservancy with land owners that are in priority areas on how 
to plan for prescribed burns and execute them and monitor to 
see if they got the results and objectives that they meant to 
achieve when they started.
    Senator Lincoln. One of the other things you mentioned was 
the root problem of too many trees per acre.
    Mr. Simon. Yes, ma'am.
    Senator Lincoln. In restoring the ecosystem to a healthy 
condition, if you look at, say, going in with selective 
cuttings, I was reading that a man was quoted as saying after a 
couple of years or better, the dying trees are good for nothing 
but just firewood. If you do go in with that cutting, how 
quickly or how important is regeneration of the trees from the 
stump in terms of--that is possible, is it not?
    Mr. Simon. Yes, ma'am.
    Senator Lincoln. Is that healthy?
    Mr. Simon. The way that we have looked at it is trying to 
identify what the desired condition would be for the stand or 
the forest so that it is sustainable and then using whatever 
methods are available. If it is regeneration from a stump to 
allow the red oak to continue or increased light to allow more 
red oaks to get on the floor, are both viable options.
    Senator Lincoln. Well, my question was, if you encourage 
regeneration from the stump the concern I would have is that 
you still have the same amount of root systems per acre as you 
would previously, so I know it is taking less nutrients from 
the soil, but does that matter at all?
    Mr. Simon. Yes, ma'am. Thanks for educating me on that. It 
would not necessarily address the issue of too many stems per 
acre and that in some way, we would need to thin those, and 
probably the best way to do it is with prescribed fire, 
allowing the things that are most adapted to the Ozark 
Highlands and the weather that we have to survive and the 
things that do not to be thinned by fire, yes.
    Senator Lincoln. Thank you. Senator Hutchinson.
    Senator Hutchinson. Yes. Thank you, Senator Lincoln. I have 
not yet thanked you for calling the hearing, and I very much 
appreciate you doing this. This deserves attention and I regret 
we do not have more members here. I know it is a very busy time 
after everybody getting back, but this is a very important 
subject and thank you for calling the hearing today.
    It seemed to me, listening, and I did not hear all the 
testimony of the first panel, but that there is a general 
consensus around two things. One is we need more money in this 
issue, and the second is that we need to streamline the process 
and clear out the kind of regulatory obstacles that cause a 
kind of paralysis in moving. There may be nuances as to where 
the money ought to go and how it ought to be prioritized, but 
everybody seems to agree we have to make a Federal commitment 
in resources and we need to change the way the process works.
    After the ice storm, when was it, 2 years ago, the terrible 
ice storm, and in trying to move the Forest Service to quick 
response and action in dealing with the threat that resulted 
from the downed trees and branches and so forth, I was struck 
with the degree of regulatory obstacles there are in trying to 
move anything forward. It was not the Forest Service's fault, 
it was this enormous process that made it difficult to move 
quickly in responding, and we are seeing the same thing in the 
oak mortality issue.
    In listening, John, your emphasis was, of course, on the 
danger of wildfires. This is what we heard about after the ice 
storm, was that with the increased fuel, that we faced a 
greater, much greater intensified risk of wildfires. What would 
be the nature of the kind of fires we would face? I know they 
burn longer and hotter, the hardwoods, but compared with what 
you see in the West, we have never had those kind of fires in 
the Ozarks or the Ouachita, but what could we expect if nothing 
is done?
    Mr. Shannon. I am often glad I am the State Forester of 
Arkansas and not one of those Western States. The climates are 
different. More than just the weather climate, the business 
relationship with the Forest Service is different in Arkansas. 
It is cooperative. Folks get along. They work together. I do 
not think we can anticipate the types of fires they have out 
West. We can anticipate more difficult fires than we usually 
have in Arkansas.
    You were very helpful, sir, after the ice storms by helping 
us--I know you did all the heavy lifting, helping Arkansas get 
some money for fire fighting equipment in South Arkansas, and 
Senator Lincoln helped us receive an EDA grant. Donna Kay 
helped us receive an EDA grant to keep our air tankers in the 
air fighting the fires, very effective.
    We have been lucky since the ice storm and lucky so far in 
this red oak borer that the weather has cooperated. We have 
upgraded our fire fighting equipment and we do have air tankers 
in the air getting to those fires quickly.
    Senator Hutchinson. It seems to me the finance scheme that 
you kind of proposed, laid out, I do not know if that is the 
exact way it ought to work, but they are pretty modest amounts, 
and for the good that could do and the dollars it could save in 
the long run, it would seem to me that would be a very 
worthwhile investment.
    Mr. Shannon. Bob Krepps and I come up here to Washington a 
few times a year and it is the only time we hear the figure 
``billions.'' We do not deal with billions. We do not deal with 
millions. State foresters deal with hundreds of thousands of 
dollars to rebuild our fire fighting. I really think this is a 
partnership, Senators, where we could make a dollar go a long 
way, and especially with the Federal excess personal property.
    If I can give you my 1-minute stump speech on that, the 
State foresters are the ones who acquire the equipment, and 
there is none available in Arkansas. It is all out of State. 
They bring it back to Greenbrier. We repair the equipment. We 
renovate it for fire fighting. We get it out to the fire 
departments for free. We track it in our inventory forever, and 
when that equipment is finally just flat worn out, we haul it 
back to Greenbrier, we sell it, and the money goes to GSA. Now, 
the Arkansas Forestry Commission does not want a nickel, and 
the volunteer fire fighters do all that work for nothing. You 
talk about a good Federal program and getting a big bang for 
the dollar. To reduce, to lower the priority for the fire 
fighters in screening that equipment just really kicks the 
teeth out of work that is really valuable for our country.
    Senator Hutchinson. Thank you.
    Mr. Shannon. Yes, sir.
    Senator Hutchinson. Mr. Simon, I am curious in what your 
response would be to what Mr. Crouch said, because both of you, 
it seemed to me, were advocating that we cannot just let it go, 
that we need to have an active response to the oak borer 
crisis. You mentioned prescribed burns and you used the term 
thinning. Mr. Crouch used the term harvesting. Is there a 
conflict there, or do you see that those are consistent in what 
you would advocate as the proper response to the increasing 
amount of dead oaks that we have?
    Mr. Simon. Senator, I would think that in any alternative, 
prescribed fire would be necessary to maintain sustainable 
density and that the differences between thinning and 
harvesting are probably dependent on what you are using to 
achieve your desired future condition and how, in my eyes, a 
thinning is something that leaves an open stand. Thinning, I 
guess, is a type of harvesting.
    Senator Hutchinson. Jim, do you want to respond to that?
    Mr. Crouch. Scott is absolutely right. When the stems are 
real small, obviously, the best and easiest way to do it would 
be with a prescribed burn. Once they get to be middle aged, 
like a lot of us are, then obviously you can do it commercially 
and prescribed burn would not necessarily be the right tool. 
Then eventually, when it becomes mature, you want to replace it 
with a young, vigorous stand. I really do not see that we are 
saying anything different there, Senator.
    Senator Hutchinson. Mr. Krepps.
    Mr. Krepps. I would say we need all the tools in the 
toolbox. We need to keep all of our options open and put what 
fits for a particular piece of ground in place, whether it be 
prescribed burning or thinning. We just need to keep our 
options wide open on that.
    Mr. Crouch. Let me say one thing John Shannon did not say 
that he meant to say and he forgot to say.
    [Laughter.]
    Mr. Crouch. All the money that came out of the ice storm 
for equipment in Arkansas essentially went to South Arkansas. 
Most of the oak problem is in North Arkansas, and what he is 
talking about is replacing some of that small, old equipment up 
there with some bigger stuff similar to what he bought for 
South Arkansas so he can push these big snags around.
    Senator Hutchinson. Just to sum it up, I know my time is 
probably way over and you have been indulgent, but I am 
curious, because you talked about the danger to the species 
with the transformation of the forests----
    Mr. Simon. Yes, sir.
    Senator Hutchinson [continuing]. You gave us a little 
history lesson on the way it was, which was very interesting. 
It was not originally oak and hardwoods, right? Or was it just 
the density that was different?
    Mr. Simon. Sir, based on the historical accounts, much of 
the Ozarks was oak woodlands and savannahs with pine in 
scattered areas and then denser forests maybe on the slopes and 
in the bottoms, so a mix.
    Senator Hutchinson. The species mix that we have now, did 
that develop in the course of the last 100 years or so and is 
that why it is important that the hardwoods stay, that we 
restore oak where we have had these forests so damaged, 400,000 
or 500,000 acres already?
    Mr. Simon. Yes, sir. Even after the cut of about 100 years 
ago, many of the pieces were all still in place and they have 
lasted this long, so there was still a predominance of oak with 
some pine, though the pine may have decreased on the sandstone 
ridges.
    Senator Hutchinson. You all are agreeing that if nothing is 
done, the oak stands, the oak predominance disappears and that 
we go to an ash, maple, softwood kind of mix that is going to 
forever change the ecology of that Ozark Highlands, is that 
fair?
    Mr. Simon. Yes. We all agree on that, based on what is 
coming up in the understory.
    Senator Hutchinson. How long does it take to--and you all 
may have covered all of this, but a restoration program like 
that with the extent of damage that we have, how long a process 
is that?
    Mr. Crouch. I would answer it this way, Senator. It depends 
on the situation on the ground. There are, in fact, young 
stands today that can be thinned and saved that will not 
experience this mortality. There are other stands that are 
essentially 100 percent dead, and this is where you heard the 
Forest Service talk about maybe reintroducing oak back into 
them. There are other stands where you have enough oak left 
that you can either cut the tree down that is there and get the 
copus from it, or you maybe can even prescribe burn in some 
cases and get some back.
    You have, as the State Forester here said, a lot of 
different situations, but the agency has the expertise to deal 
with that. You could be often in good shape with a healthy span 
in 10 years, or it could take a long, long time. It just 
depends on the circumstances. That is where the expertise comes 
in that these folks have and they have to have the direction 
and money to do those kinds of things.
    Mr. Simon. Yes, sir. I would say, although it is going to 
vary a little bit onsite conditions, the last picture on the 
right shows a restoration area after approximately 5 years and 
it probably looks something like this, and that would involve 
one thinning and two prescribed burns. On an area that has not 
been extensively grazed, there is still a lot to work with. 
Arkansas is blessed with really resilient communities and they 
respond with that sunlight. If it has been heavily grazed, it 
may take a little bit longer as more species seed in. I would 
say between five to 10 years, you could go from very dense, 
minimal herbaceous understory, heavy fuel loads, with a few 
burns and some thinning to an open stand that is sustainable.
    Senator Lincoln. Thank you. That is very helpful. I was 
just looking at the time line of the oak forest in the Ozarks 
and realizing that oaks have been there since 1000 B.C. It 
would be such a shame not to be able to try and take advantage 
of the management tools we have to maintain them.
    How safe is it to say, or how realistic is it that the 
younger oaks that Mr. Crouch mentions, if we do not do anything 
about the older and dying trees, how likely are the smaller 
trees to not survive?
    Mr. Simon. Overall, without fire, they would be out-
competed by the maples, the ashes, and the gums, just because 
they are more adapted to heavy shade and no fire.
    Senator Lincoln. Has it been our experience in the forestry 
industry that if we change the landscape, that the species 
itself would retreat to its normal condition, because the red 
oak borer is indigenous to Arkansas. If we work to return the 
landscape, then is it safe to say that the red oak borer would 
retreat to its normal existence?
    Mr. Simon. Yes, I think so. I mean, a lot of us in the 
conservation community and the land management community talk 
about complex systems, that maybe we cannot understand all the 
nuances, but we operate under a simple premise that if we try 
to establish the conditions that we think are most healthy, 
that the rest of the wildlife species or animal species would 
fall into place. That under an open stand, the red oak borer 
would decline to its normal range of populations, and the same 
with other wildlife species that may be threatened.
    Senator Lincoln. We have had some experience with that.
    Mr. Simon. We have had some experience with that. The 
Conservancy's experience is probably more with rare species, so 
that as we restore the habitat type of plant community or a 
forest back to a certain system, some of the rare species will 
increase because they are used to that place and the way it 
looks.
    Senator Lincoln. We talked about one of the easiest 
solutions that we can provide is technical assistance to 
private forest land owners. In our recently enacted farm bill, 
we included for the first time permanent funding for technical 
assistance to private forest land owners. To our State 
Foresters, both John and Robert, how can you apply that Forest 
Land Enhancement Program and the sustainable forestry outreach 
initiative funds to the problem of the Ozark oak decline and 
mortality?
    Mr. Shannon. We can apply it directly. The Forest Land 
Enhancement Program cost share money, the State foresters and 
the local stewardship committees have a lot of flexibility on 
how to use those funds and we can certainly set aside a 
significant portion of those funds for the Ozark oak mortality 
problem. It will be a direct help.
    Senator Lincoln. That is our intent.
    Mr. Krepps. As I mentioned in my testimony, we are already 
looking at the provisions and have already started implementing 
this past fiscal year through the EQIP program, recognizing the 
FLEP program will be coming on board. We are having quite a bit 
of success. We worked very closely with the Natural Resource 
Conservation Service in highlighting the forest health issue 
and have directed a number of our projects specifically in the 
oak decline area, working with private land owners.
    We were a little concerned as we started into that process 
that many land owners would not recognize the need. With a 
minimal of sell, we have had a lot of folks come forward and it 
is pretty gratifying to see the interest in implementing forest 
health measures on private land through those programs, so we 
are very encouraged.
    Senator Lincoln. Well, that was our intent. Our intent was 
to help enhance what you could do and providing private land 
owners that ability, and with your ability.
    Just to ask the entire panel, and any or all of you may 
have a perspective, what effects will this epidemic have on our 
watersheds? I asked our first panel, and I am very curious to 
know in terms of our watersheds and also what potential for 
species falling into threatened or endangered status as a 
result of this epidemic. Is there anything you all may have to 
add to that?
    Mr. Shannon. I will jump into the watershed issue, Madam 
Chair.
    Senator Lincoln. Please.
    Mr. Shannon. There are several values from a good, 
vigorous, healthy Ozark forest and one of those is watershed 
values and providing water qualities that really are the envy 
of the nation. We are talking high-quality water out of the 
Ozarks.
    Millions of those trees die. Then you get a fire through 
there that could be hot enough to really reduce it all to ash 
and even burn some of the soil and those watersheds are at 
risk, a true risk of heavy runoff, heavy siltation. I am not 
sure how far it will reach down to municipal water supplies, 
but it will certainly hurt the water quality in all those 
creeks in the Ozarks. I would say the oak borer followed by 
wildfires is a significant risk, and we have seen that out 
West.
    Mr. Simon. Yes, ma'am. I agree with Mr. Shannon. If there 
was a heavy wildfire, that it could threaten, because of the 
increased erosion, some of the watersheds, because the historic 
grassy layer is not there to hold the soil.
    Regarding some of the species, the Ozarks are so rich in 
species that only occur there, and numerous dozens of federally 
listed species, there is a possibility, although I would have 
to get back to you on which ones, whose populations could 
decline significantly, that only are dependent on the oak 
ecosystem that could potentially be listed if somebody 
petitioned it, both terrestrial species and in some of the 
watersheds that are threatened. Many of the six rivers that 
flow just off the Ozark, the Boston Mountains themselves each 
have an endemic crayfish or a fish or a mussel that might only 
be known from that river and nowhere else in the world, so it 
is a possibility.
    Mr. Krepps. I guess from my perspective, certainly, the 
impact on the neotropical migrants, as has been mentioned here, 
as well as the mussels and the aquatic life potentially are 
going to be affected through this process.
    As far as without fire what is going to happen, I guess my 
perspective is that we are going to have vegetation out there. 
The other species will colonize and grow rapidly on the site to 
fill the gap. Certainly, we need to do everything we can to 
enhance the maintenance of our oak component in this forest.
    Senator Lincoln. Just in closing, there has been much 
debate here in Congress related to preserving old growth trees. 
This epidemic has affected almost solely older trees. Given the 
background of the debate about old growth forests, how does it 
make the job of addressing this epidemic of oak mortality in 
the Ozarks different from other forest health issues or 
situations throughout our country and how is that challenge 
different on private lands?
    Mr. Crouch. I will talk just a little about the National 
Forests. You know, the old growth, it depends on whose 
definition you are using for old growth because these lands 
here, as beautiful and as pristine as they look, oftentimes are 
truly the lands that nobody wanted. If you look at most of 
them, the Ozark, for example, the Ouachita was put together in 
the very early 1900's. There was part of that land that was so 
poor and rough that it was never even homesteaded. It was 
public domain.
    If you move up to Missouri, it was put together basically 
in the 1930's out of land that had been farmed, burned, grazed, 
cut, and nobody wanted and was out of taxes.
    If you consider this old growth, we can grow you any amount 
of it you want for 70, 80, 90 years, it is quite different from 
old growth in the West.
    Mr. Shannon. A whole different picture of old growth out 
West and old growth in the Ozarks. For whatever you want to 
call old growth in the Ozarks, red oak borers are not too 
interested, really, in what we call the trees. They are taking 
care of the old growth right now.
    Senator Lincoln. Bob.
    Mr. Krepps. We have to go back to something that Jim Crouch 
said here a minute ago. It depends upon how you define old 
growth. When I look back into the history of the Missouri 
portion of the Ozark Highlands, it was cut over about 80 or 90 
years ago. It was burned repeatedly up into the 1940's and 
early 1950's. My agency and my department was formed to try to 
resolve the massive annual burning that occurred. It is hard to 
place that all in context with an old growth forest. What we 
have here is a result of 80 or 90 years of mismanagement and 
mistreatment of the land.
    Mr. Simon. I agree with all that. At some level, we are 
blessed because Arkansas's systems are so adapted to 
disturbance, like fire, that old growth that may be relevant 
and capture the image and the issues in another part of the 
country, for us, the picture might be the trees plus all the 
other species so that we have all the pieces of the puzzle and 
the system can be sustainable. I would say it is not--old 
growth does not frame the issue for us, it is diversity in 
Arkansas.
    Senator Lincoln. In all of the education I have on this 
issue, diversity of the forest has clearly been the one issue 
that has come out most prominent in my mind as being the most 
viable tool for sustainability, without a doubt.
    I want to thank all of you, all of our witnesses who have 
come to Washington this morning. All of your testimony has been 
very beneficial and will help the committee address this 
epidemic in both the coming days on the Senate floor as well as 
coming months as we continue to work toward healthier forests 
throughout this nation.
    The committee will keep the record open for 10 days for 
additional submissions to the record. Also, if members have 
additional written questions for witnesses, they may submit 
them during this time and we will forward them to the witnesses 
for written response and hope you will make yourselves 
available for answering any of those written questions. They 
will appear in the final hearing record.
    We appreciate very much your input and we look forward to 
working with you in the days to come. The committee stands 
adjourned.
    [Whereupon, at 11:04 a.m., the subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 5, 2002




=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 5, 2002




=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
